      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                        Washington, D.C. 20201




November 30, 2011


TO:            Peter Budetti
               Deputy Administrator and Director
               Center for Program Integrity
               Centers for Medicare & Medicaid Services

               Deborah Taylor
               Director and Chief Financial Officer
               Office of Financial Management
               Centers for Medicare & Medicaid Services


FROM:          /Brian P. Ritchie/
               Assistant Inspector General for the
                 Centers for Medicare & Medicaid Audits


SUBJECT:       Medicare Compliance Review of Norwood Hospital for the Period July 2008
               Through June 2010 (A-01-11-00510) and Medicare Compliance Review of
               Tallahassee Memorial HealthCare, Inc., for Calendar Years 2009 and 2010
               (A-04-11-08003)


Attached, for your information, are advance copies of our final reports for two of our hospital
compliance reviews. We will issue these reports to Norwood Hospital and Tallahassee Memorial
HealthCare, Inc. within 5 business days.

These reports are part of a series of the Office of Inspector General’s hospital compliance
initiative, designed to review multiple issues concurrently at individual hospitals. These reviews
of Medicare payments to hospitals examine selected claims for inpatient and outpatient services.
The two attached reports are the seventh and eighth reports issued in this initiative.

If you have any questions or comments about these reports, please do not hesitate to contact me
at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or your staff may contact the
respective Regional Inspectors General for Audit Services:

Norwood Hospital
Michael J. Armstrong, Regional Inspector General for Audit Services, Region I,
(617) 565-2689, Michael.Armstrong@oig.hhs.gov
Page 2 – Peter Budetti, Deborah Taylor

Tallahassee Memorial Hospital
Lori S. Pilcher, Regional Inspector General for Audit Services, Region IV,
(404) 562-7750, Lori.Pilcher@oig.hhs.gov



Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region IV
                                                                          61 Forsyth Street, SW, Suite 3T41
                                                                          Atlanta, GA 30303
November 30, 2011

Report Number: A-04-11-08003

Mr. G. Mark O’Bryant
President & Chief Executive Officer
Tallahassee Memorial HealthCare, Inc.
1300 Miccosukee Road
Tallahassee, FL 32308

Dear Mr. O’Bryant:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Medicare Compliance Review of Tallahassee Memorial
HealthCare, Inc., for Calendar Years 2009 and 2010. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Truman Mayfield, Audit Manager, at (850) 942-8900, extension 22 or through email at
Truman.Mayfield@oig.hhs.gov. Please refer to report number A-04-11-08003 in all
correspondence.

                                             Sincerely,



                                             /Lori S. Pilcher/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. G. Mark O’Bryant


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
 Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




 MEDICARE COMPLIANCE REVIEW
  OF TALLAHASSEE MEMORIAL
HEALTHCARE, INC., FOR CALENDAR
     YEARS 2009 AND 2010




                        Daniel R. Levinson
                         Inspector General

                         November 2011
                         A-04-11-08003
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned. The DRG payment is, with certain exceptions, payment in full to
the hospital for all inpatient costs associated with the beneficiary’s stay.

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. Under the OPPS, Medicare pays for hospital outpatient services
on a rate-per-service basis that varies according to the assigned ambulatory payment
classification.

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. This review is part of a series of OIG reviews of Medicare payments to
hospitals for selected claims for inpatient and outpatient services.

Tallahassee Memorial HealthCare, Inc. (Tallahassee Memorial), is a 770-bed acute care hospital
located in Tallahassee, Florida. Medicare paid Tallahassee Memorial approximately $142.7
million for 7,385 inpatient and 7,277 outpatient claims for services provided to beneficiaries
during calendar years (CY) 2009 and 2010 based on CMS’s National Claims History data.

Our audit covered $3,448,702 in Medicare payments to Tallahassee Memorial for 167 claims
that we judgmentally selected as potentially at risk for billing errors. These 167 claims had dates
of service in CYs 2009 and 2010, and consisted of 69 inpatient and 98 outpatient claims.

OBJECTIVE

Our objective was to determine whether Tallahassee Memorial complied with Medicare
requirements for billing inpatient and outpatient services on selected claims.

SUMMARY OF FINDINGS

Tallahassee Memorial complied with Medicare billing requirements for services on 153 of the
167 claims. However, Tallahassee Memorial did not fully comply with Medicare billing



                                                 i
requirements for 14 inpatient and outpatient claims. Specifically, these 14 claims had billing
errors that resulted in overpayments totaling $129,940 for CYs 2009 and 2010. Overpayments
occurred primarily because Tallahassee Memorial did not have adequate controls to prevent
incorrect billing of Medicare claims, and its staff did not fully understand the Medicare billing
requirements.

RECOMMENDATIONS

We recommend that Tallahassee Memorial:

   •   refund to the Medicare contractor $129,940,

   •   strengthen controls to ensure full compliance with Medicare requirements, and

   •   provide training to its staff members to improve their understanding of Medicare billing
       requirements.

TALLAHASSEE MEMORIAL COMMENTS

In written comments on our draft report, Tallahassee Memorial concurred with our
recommendations. Tallahassee Memorial stated that it has implemented stronger internal
controls and it will continue to monitor its documentation and billing control process to better
comply with Medicare requirements. Furthermore, Tallahassee Memorial has corrected the
claims identified as being in error in this report and has submitted amended Medicare claims.
Tallahassee Memorial’s comments are included in their entirety as the Appendix.




                                                 ii
                                                   TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION........................................................................................................................1

      BACKGROUND ...................................................................................................................1
         Hospital Inpatient Prospective Payment System ...........................................................1
         Hospital Outpatient Prospective Payment System .........................................................1
         Hospital Payments at Risk for Incorrect Billing ............................................................2
         Medicare Requirements for Hospital Claims and Payments .........................................2
         Tallahassee Memorial HealthCare, Inc. .........................................................................3

      OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................3
         Objective ........................................................................................................................3
         Scope ..............................................................................................................................3
         Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..............................................................................4

      BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS ....................................5
          Incorrect Diagnosis-Related Groups ..............................................................................5
          Incorrect Discharge Status .............................................................................................6
          Incorrectly Billed as Inpatient ........................................................................................6
          Incorrect Charges Resulting in Outlier Overpayment ...................................................6

      BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS ................................7
          Incorrect Reporting of Medical Device Credits .............................................................7
          Incorrect Healthcare Common Procedure Coding System Codes .................................8

      RECOMMENDATIONS ......................................................................................................8

      TALLAHASSEE MEMORIAL COMMENTS ....................................................................8

APPENDIX

      TALLAHASSEE MEMORIAL COMMENTS




                                                                     iii
                                              INTRODUCTION

BACKGROUND

Title XVIII of the Social Security Act (the Act) established the Medicare program, which
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program. Medicare Part A provides inpatient hospital insurance
benefits and coverage of extended care services for patients after hospital discharge. Medicare
Part B provides supplementary medical insurance for medical and other health services,
including coverage of hospital outpatient services.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals. 1

Hospital Inpatient Prospective Payment System

Section 1886(d) of the Act established the inpatient prospective payment system (IPPS) for
hospital inpatient services. Under the IPPS, CMS pays hospital costs at predetermined rates for
patient discharges. The rates vary according to the diagnosis-related group (DRG) to which a
beneficiary’s stay is assigned and the severity level of the patient’s diagnosis. The DRG
payment is, with certain exceptions, payment in full to the hospital for all inpatient costs
associated with the beneficiary’s stay. For beneficiary stays involving extraordinarily high costs,
section 1886(d)(5)(A) of the Act provides for additional payments (called outlier payments) to
Medicare-participating hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS) for hospital outpatient
services, as mandated by the Balanced Budget Act of 1997, P.L. No. 105-33, and the Medicare,
Medicaid, and SCHIP (State Children’s Health Insurance Program) Balanced Budget Refinement
Act of 1999, P.L. No. 106-113. 2 The OPPS is effective for services furnished on or after
August 1, 2000. Under the OPPS, Medicare pays for hospital outpatient services on a rate-per-
service basis that varies according to the assigned ambulatory payment classification (APC).
CMS uses Healthcare Common Procedure Coding System (HCPCS) codes and descriptors to




1
  Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Most, but not all, of the MACs are fully operational; for
jurisdictions where the MACs are not fully operational, the fiscal intermediaries and carriers continue to process
claims. For purposes of this report, the term “Medicare contractor” means the fiscal intermediary, carrier, or MAC,
whichever is applicable.

2
    In 2009 SCHIP was formally redesignated as the Children’s Health Insurance Program.



                                                         1
identify and group the services within each APC group. 3 All services and items within an APC
group are comparable clinically and require comparable resources.

Hospital Payments at Risk for Incorrect Billing

Prior Office of Inspector General (OIG) audits, investigations, and inspections identified certain
payments to hospitals that are at risk for noncompliance with Medicare billing requirements.
OIG identified these types of payments to hospitals using computer matching, data mining, and
analysis techniques. The types of payments identified included payments for claims billed for:

    •   inpatient transfers,

    •   inpatient hospital-acquired conditions and present-on-admission indicator reporting,

    •   outpatient claims with payments greater than $25,000,

    •   outpatient services billed during skilled nursing facility stays,

    •   outpatient surgeries billed with units of service greater than one,

    •   inpatient and outpatient claims paid in excess of hospital charged amounts, and

    •   inpatient and outpatient claims involving manufacturer credits for replaced medical
        devices.

For purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”

This review is part of a series of OIG reviews of Medicare payments to hospitals for selected
claims for inpatient and outpatient services.

Medicare Requirements for Hospital Claims and Payments

Section 1862(a)(1)(A) of the Act states that Medicare payments may not be made for items and
services that are not reasonable and necessary for diagnosing or treating illness or injury or for
improving the functioning of a malformed body member. In addition, section 1833(e) of the Act
precludes payment to any provider of services or other person without information necessary to
determine the amount due the provider.

Federal regulations (42 CFR § 424.5(a)(6)) state that the provider must furnish to the Medicare
contractor sufficient information to determine whether payment is due and the amount of
payment.




3
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


                                                        2
The Medicare Claims Processing Manual (the Manual), Pub. No. 100-04, chapter 1, section
80.3.2.2, requires providers to complete claims accurately so that Medicare contractors may
process them correctly and promptly. Chapter 23, section 20.3, of the Manual states that
providers must use HCPCS codes for most outpatient services.

Tallahassee Memorial HealthCare, Inc.

Tallahassee Memorial HealthCare, Inc. (Tallahassee Memorial), is a 770-bed acute care hospital
located in Tallahassee, Florida. According to CMS’s National Claims History data, Medicare
paid Tallahassee Memorial approximately $142.7 million for 7,385 inpatient and 7,277
outpatient claims for services provided to beneficiaries during calendar years (CY) 2009 and
2010.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Tallahassee Memorial complied with Medicare
requirements for billing inpatient and outpatient services on selected claims.

Scope

Our audit covered $3,448,702 in Medicare payments to Tallahassee Memorial for 167 claims
that we judgmentally selected as potentially at risk for billing errors. These 167 claims had dates
of service in CYs 2009 and 2010 and consisted of 69 inpatient and 98 outpatient claims.

We focused our review on the risk areas identified during, and as a result of, prior OIG reviews
at other hospitals. We evaluated compliance with selected billing requirements but did not use
medical review to determine whether the services were medically necessary. We limited our
review of Tallahassee Memorial’s internal controls to those applicable to the inpatient and
outpatient risk areas because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on select risk areas and does not represent an overall assessment of all claims
submitted by Tallahassee Memorial for Medicare reimbursement.

We performed fieldwork at Tallahassee Memorial from March through June 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;




                                                 3
   •   extracted Tallahassee Memorial’s inpatient and outpatient paid claims data from CMS’s
       National Claims History file for CYs 2009 and 2010;

   •   obtained information on known credits for replaced cardiac medical devices from the
       device manufacturers for CYs 2009 through 2010;

   •   used computer matching, data mining, and analysis techniques to identify claims
       potentially at risk for noncompliance with selected Medicare billing requirements;

   •   selected a judgmental sample of 167 claims (69 inpatient and 98 outpatient) for detailed
       review;

   •   reviewed available data from CMS’s Common Working File for the sampled claims to
       determine whether the claims had been cancelled or adjusted;

   •   reviewed the itemized bills and medical record documentation provided by Tallahassee
       Memorial to support the sampled claims;

   •   requested that Tallahassee Memorial conduct its own review of the sampled claims to
       determine whether the services were billed correctly;

   •   reviewed Tallahassee Memorial’s procedures for assigning HCPCS codes and submitting
       Medicare claims;

   •   discussed the incorrectly billed claims with Hospital personnel to determine the
       underlying causes of noncompliance with Medicare requirements;

   •   calculated the correct payments for those claims requiring adjustment; and

   •   discussed the results of our review with Tallahassee Memorial officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Tallahassee Memorial complied with Medicare billing requirements for services on 153 of the
167 claims. However, Tallahassee Memorial did not fully comply with Medicare billing
requirements for 14 inpatient and outpatient claims. Specifically, these 14 claims had billing
errors that resulted in overpayments totaling $129,940 for CYs 2009 and 2010. Overpayments
occurred primarily because Tallahassee Memorial did not have adequate controls to prevent
incorrect billing of Medicare claims, and its staff did not fully understand the Medicare billing
requirements.


                                                 4
Of 69 sampled inpatient claims, 11 claims had billing errors resulting in overpayments totaling
$89,223.

   •   For eight claims, Tallahassee Memorial submitted claims to Medicare with incorrect
       DRGs.

   •   For one claim, Tallahassee Memorial incorrectly billed Medicare for a patient discharge
       that should have been billed as a transfer to another facility.

   •   For one claim, Tallahassee Memorial incorrectly billed Medicare Part A for a beneficiary
       stay that should have been billed as outpatient services. Additionally, this claim did not
       have a valid physician order to admit the beneficiary to inpatient care.

   •   For one claim, Tallahassee Memorial submitted the claim to Medicare with incorrect
       charges that resulted in an incorrect outlier payment.

Of 98 sampled outpatient claims, 3 claims had billing errors resulting in overpayments totaling
$40,717.

   •   For two claims, Tallahassee Memorial either did not obtain a credit for a replaced device
       that was available under the terms of the manufacturer’s warranty (1 error) or it received
       full credit for a replaced device but did not report the “FB” modifier or reduced charges
       on its claim (1 error).

   •   For one claim, Tallahassee Memorial billed Medicare using an incorrect HCPCS code.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

Tallahassee Memorial incorrectly billed Medicare for 11 of the 69 sampled inpatient claims that
we reviewed. These errors resulted in overpayments totaling $89,223.

Incorrect Diagnosis-Related Groups

The Manual, chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that
Medicare contractors may process them correctly and promptly.

However, for 8 of 69 sampled inpatient claims, Tallahassee Memorial submitted claims to
Medicare with incorrect procedure codes, which resulted in incorrect DRGs. For example, one
incorrectly coded claim generated DRG 468 (revision of hip or knee replacement) based on a
secondary diagnosis code of V43.65 (knee joint replaced by other means). However, the medical
records indicated that the surgical procedure was cancelled. The appropriate coding would have
resulted in DRG 561 (aftercare, musculoskeletal system and connective tissue) based on a
secondary diagnosis code V64.3 (procedure not carried out for other reasons).




                                                5
Tallahassee Memorial stated that the procedure coding errors occurred because of coder errors in
applying the rules or interpreting the documentation. As a result, Tallahassee Memorial received
overpayments totaling $73,683.

Incorrect Discharge Status

Federal Regulations (42 CFR § 412.4(c)) state that a discharge of a hospital inpatient is
considered a transfer when the patient’s discharge is assigned to one of the qualifying DRGs and
the discharge is to a home under a written plan of care for the provision of home health services
from a home health agency and those services begin within 3 days after the date of discharge. A
hospital that transfers an inpatient under the above circumstances is paid a graduated per diem
rate for each day of the patient’s stay in that hospital, not to exceed the full DRG payment that
would have been paid if the patient had been discharged to another setting (42 CFR § 412.4(f)).

For 1 of 69 sampled inpatient claims, Tallahassee Memorial incorrectly billed Medicare for a
patient discharge that should have been billed as a transfer. For this claim, Tallahassee
Memorial should have coded the discharge status to a home under a written plan of care for the
provision of home health services, instead of as a discharge to home. Accordingly, Tallahassee
Memorial should have received the per-diem payment instead of the full DRG payment.
Tallahassee Memorial stated that this error occurred because documentation found in the
physician’s discharge summary differed from the case management notes found within the
medical record. As a result, Tallahassee Memorial received an overpayment totaling $7,937.

Incorrectly Billed as Inpatient

Section 1862(a)(1)(A) of the Act states that no Medicare payment may be made for items or
services that are not reasonable and necessary for diagnosing or treating illness or injury or for
improving the functioning of a malformed body member. Section 1814(a)(3) of the Act states
that payment for services furnished to an individual may be made only to providers of services
that are eligible and only if, “with respect to inpatient hospital services ... which are furnished
over a period of time, a physician certifies that such services are required to be given on an
inpatient basis for such individual’s medical treatment ….”

For 1 of 69 sampled inpatient claims, Tallahassee Memorial incorrectly billed Medicare Part A
for a beneficiary stay that should have been billed as outpatient services. Additionally, the
medical records did not have a valid physician order to admit the beneficiary to inpatient care.
Tallahassee Memorial stated that the missing orders were due to clerical error. The patient type
was incorrectly assigned as inpatient rather than outpatient by the medical record coder. As a
result, Tallahassee Memorial received an overpayment totaling $7,363.

Incorrect Charges Resulting in Outlier Overpayment

The Manual, chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that
Medicare contractors may process them correctly and promptly. In addition, chapter 3, section
10 states that a hospital may bill only for services provided.




                                                  6
For 1 of 69 sampled inpatient claims, Tallahassee Memorial submitted a claim to Medicare with
incorrect charges that resulted in an outlier overpayment. The incorrect charges were for drug,
pharmacy, and pulmonary function revenue codes. Tallahassee Memorial stated that this error
occurred because its edits did not appropriately preclude charging more than one item per day in
this circumstance. In this case, the extra charges resulted in a higher outlier payment on the
claim. As a result, Tallahassee Memorial received an overpayment totaling $240.

BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

Tallahassee Memorial incorrectly billed Medicare for 3 of 98 sampled outpatient claims,
resulting in overpayments totaling $40,717.

Incorrect Reporting of Medical Device Credits

Federal regulations (42 CFR § 419.45) require a reduction in the OPPS payment for the
replacement of an implanted device if: (1) the device is replaced without cost to the provider or
the beneficiary, (2) the provider receives full credit for the cost of the replaced device, or (3) the
provider receives partial credit equal to or greater than 50 percent of the cost of the replacement
device.

Prudent Buyer Principle

Pursuant to 42 CFR § 413.9, “All payments to providers of services must be based on the
reasonable cost of services ….” CMS’s Provider Reimbursement Manual, part 1, section
2102.1, states, “Implicit in the intention that actual costs be paid to the extent they are reasonable
is the expectation that the provider seeks to minimize its costs and that its actual costs do not
exceed what a prudent and cost conscious buyer pays for a given item or service. If costs are
determined to exceed the level that such buyers incur, in the absence of clear evidence that the
higher costs were unavoidable, the excess costs are not reimbursable under the program.”
Section 2103 of the Provider Reimbursement Manual states that Medicare providers are expected
to pursue free replacements or reduced charges under warranties. Section 2103(C)(4) provides
the following example:

       Provider B purchases cardiac pacemakers or their components for use in replacing
       malfunctioning or obsolete equipment, without asking the supplier/manufacturer
       for full or partial credits available under the terms of the warranty covering the
       replaced equipment. The credits or payments that could have been obtained must
       be reflected as a reduction of the cost of the equipment supplied.

Billing Requirements for Medical Device Credits

CMS guidance in Transmittal 1103, dated November 3, 2006, and the Manual explain how a
provider should report no-cost and reduced-cost devices under the OPPS. For services furnished
on or after January 1, 2007, CMS requires the provider to report the modifier “FB” and reduce
charges on a claim that includes a procedure code for the insertion of a replacement device if the
provider incurs no cost or receives full credit for the replaced device.



                                                   7
For 2 of the 98 sampled outpatient claims, Tallahassee Memorial either did not obtain a credit for
a replaced device that was available under the terms of the manufacturer’s warranty (1 error) or it
received full credit for a replaced device but did not report the “FB” modifier or reduced charges
on its claim (1 error).

Tallahassee Memorial stated that these errors were caused by the need for human intervention in
processing credits for replaced medical devices. As a result, Tallahassee Memorial received
overpayments totaling $39,400.

Incorrect Healthcare Common Procedure Coding System Codes

Section 1833(e) of the Act precludes payment to any provider of services or other person without
information necessary to determine the amount due the provider. Additionally, the Manual,
chapter 1, section 80.3.2.2, requires providers to complete claims accurately so that Medicare
contractors may process them correctly and promptly.

For 1 of 98 sampled outpatient claims, Tallahassee Memorial billed Medicare using an incorrect
HCPCS code. For this claim, Tallahassee Memorial used a code that was not supported by the
medical records but was accepted by the coding software. Tallahassee Memorial attributed this
error to limitations in its coding software because none of the options available to the coder
accurately described the procedure performed. As a result, Tallahassee Memorial received an
overpayment totaling $1,317.

RECOMMENDATIONS

We recommend that Tallahassee Memorial:

   •   refund to the Medicare contractor $129,940,

   •   strengthen controls to ensure full compliance with Medicare requirements, and

   •   provide training to its staff members to improve their understanding of Medicare billing
       requirements.

TALLAHASSEE MEMORIAL COMMENTS

In written comments on our draft report, Tallahassee Memorial concurred with our
recommendations. Tallahassee Memorial stated that it has implemented stronger internal
controls and it will continue to monitor its documentation and billing control process to better
comply with Medicare requirements. Furthermore, Tallahassee Memorial has corrected the
claims identified as being in error in this report and has submitted amended Medicare claims.
Tallahassee Memorial’s comments are included in their entirety as the Appendix.




                                                 8
APPENDIX
                                                                                                         Page 1 of 2
             APPENDIX: TALLAHASSEE MEMORIAL COMMENTS
	
                                                             Richard A. Zyski             1300 Miccosukee Road
                                                             Chief Compliance Officer     Tallahassee, Florida 32308

                                                                                          850 431-5339
850 431-5883 Fax




                                                                                        October 27, 2011

Mr. John T. Drake, Sr.
Acting Regional Inspector General for Audit Services
Department of Health and Human Services
Office of Inspector General
Office of Audit Services, Region IV
61 Forsyth Street, SW, Suite 3T41
Atlanta, GA 30303

         RE: Report Number: A-04-11-08003

Dear Mr. Drake:

On behalf of Tallahassee Memorial HealthCare, Inc. (TMH) and G. Mark O’ Bryant, President
and Chief Executive Officer of TMH, please accept these comments to the Department of Health
and Human Services (DHHS), Office of Inspector General (OIG), draft report entitled Medicare
Compliance Review of Tallahassee Memorial HealthCare, Inc. for Calendar Years 2009 and
2010.

TMH constantly strives to eliminate billing errors. While TMH would have preferred that no
errors were identified, we note that our error rate is extremely low for these types of claims that
otherwise have been universally identified by DHHS/OIG as suspected of having high error
rates.

We concur with the three report recommendations and note the following with regard to those
recommendations:

    1)	 We agree that TMH was overpaid as stated in the report by $129,940. All of the amounts
        identified as errors in the report have been corrected, and amended claims have been
        submitted, in accordance with CMS guidelines, to our fiscal intermediary, First Coast
        Service Options (FCSO). It is our understanding that this process will be completed as
        soon as the final report related to this examination is issued by the OIG and transmitted to
        FCSO.

    2)	 With regard to the recommendation to strengthen controls, TMH devotes a significant
        amount of resources to maintain accurate and effective controls. We are constantly
        making improvements to our documentation and billing processes and related controls.
        We will continue to do so.
                                                                                              Page 2 of 2
Page 2 – Mr. John T. Drake, Sr., Report Number: A-04-11-08003



       The following corrective actions have been taken to strengthen internal controls:

             As a result of this audit, TMH has strengthened its internal processes surrounding
             explanted medical devises requiring the collaboration of clinical, billing and
             procurement departments. Additionally, we have revised our internal processes
             surrounding DRG changes identified internally which will require the collaboration
             of the medical records, billing, and charge capture departments. Lastly, we have
             strengthened our Case Management processes in an attempt to ensure that all
             Inpatient accounts are correctly classified and meet appropriate guidelines for
             Inpatient admission.

   3)	 With regard to the recommendation to provide training to staff members, TMH
       continuously provides education and training to our colleagues involved in the coding
       and billing processes. We also provide automated tools and reference resources in order
       to maintain current knowledge of ever-changing, complex Medicare coding and billing
       requirements. We will continue to do so.

       The following corrective actions have been taken subsequent to the period covered by the
       OIG audit:

             TMH has increased the frequency of external coding reviews in an attempt to
             enhance the accuracy of its coding practices. Additionally, Case Management
             personnel have been given additional education in standards for Inpatient admission
             criteria as well as proper documentation of the correct discharge status for patients.

It has always been and will continue to be our intent to file accurate, complete, and timely
Medicare claims with the objective of having no errors or need for adjustments.

Thank you for assisting us by identifying areas for our continuous improvement activities and for
the opportunity to provide this commentary.

Sincerely,

/Richard A. Zyski/

Richard A. Zyski
Chief Compliance Officer

RAZ/svh

cc:	 G. Mark O’Bryant, President and Chief Executive Officer
